IN THE

PAUL W. NUSBAUM, JR

COURT OF APPEALS
OF MARYLAND
COA-PET-0442-2019

v.

CSA-REG-0480-2018
(No. 06-C-03-039838, Circuit
Court for Carroll County)

MARSHA R. NUSBAUM, et al.

ORDER
Upon consideration of the petition for a writ of certiorari to the Court of Special
Appeals and the answers filed thereto, in the above-captioned case, it is

ORDERED, by the Court of Appeals of Maryland, that the petition be,
and it is hereby, DENIED as there has been no showing that review by certiorari is
desirable and in the public interest.

/s/ Maiy Ellen Barbera
Chief Judge
DATE: March 27, 2020

26

243 Md.App. 653
221 A.3d 1107

Paul W. NUSBAUM, Jr.
v.
Marsha R. NUSBAUM, et al.
No. 0480, Sept. Term, 2018
Court of Special Appeals of Maryland.
December 20, 2019
Argued by: Chad G. Spencer (Spencer & Stahl, on the brief), Columbia, MD, for Appellant.
Argued by: Karen H. Rohrbaugh (Brian E. Frosh, Atty. Gen., Baltimore, MD), Amy M. Feldman (Feldman
Law, LLC, Towson, MD), on the briefs, for Appellee.
Panel: Nazarian, Wells, Sally D. Adkins (Senior Judge, Specially Assigned) JJ.
Wells, J.
[243 Md App. 659]
Appellant, Paul Nusbaum, asked the Circuit Court for Carroll County to order the Carroll County Office of
the Maryland
[243 Md App. 660]
Child Support Administration to reallocate the money he had previously paid for child support and alimony
solely to his child support account. After a hearing on the issue, the circuit court ruled that Mr. Nusbaum
was judicially estopped from the requested reallocation because Mr. Nusbaum had previously claimed part
of the money as "alimony paid" and taken an income tax deduction. Consequently, the court ruled that he
could not re-characterize those payments exclusively as child support.
Mr. Nusbaum took a timely appeal and presents two questions for our review:
1. Did the circuit court err in declaring that Mr. Nusbaum was judicially estopped from
claiming that the amounts he claimed as alimony on his tax returns should be reallocated
toward his child support arrears with the [Carroll County Office of Child Support Enforcement
]?
(OCSE)
2. Did the Circuit Court err in not reaching a decision as to whether the allocation of support
funds paid to a former spouse should be first paid to current child support and child support
arrears, prior to any
[221 A.3d 1111]

2

payment of funds toward spousal support?
We hold that although the circuit court erred in its application of judicial estoppel to prevent the
reallocation, the circuit court could not have legally ordered the reallocation in any event. We, therefore,
affirm the circuit court.

FACTUAL AND PROCEDURAL BACKGROUND
When they divorced in 2005, the Circuit Court for Carroll County ordered Paul Nusbaum to pay his former
wife, Marsha Nusbaum, $3,250.00 per month in non-modifiable alimony. Mr. Nusbaum was also ordered
to pay Ms. Nusbaum $1,422.00 per month in child support for the benefit of their four children. At Ms.
Nusbaum's request, Mr. Nusbaum was required to pay both sums via an Earnings Withholding Order
through the Carroll County Office of Child Support Enforcement ("OCSE"), the local branch of the Maryland
Child Support
[243 Md.App. 661]
Administration ("MCSA"), the state agency charged with collecting child and spousal support.
Around 2008, Mr. Nusbaum moved to Georgia. The OCSE duly registered the Earnings Withholding Order
in Georgia, obligating Georgia to collect Mr. Nusbaum's alimony and child support payments and forward
them to Maryland.
It is important to note that during this time, although Mr. Nusbaum's wages were garnished, he did not pay
the full monthly amount of either child support or alimony because what he earned could not fully satisfy
either obligation. Consequently, by 2010, when Mr. Nusbaum asked the court to modify his monthly child
support payment, he owed $36,264.60 in unpaid child support and $117,127.22 in unpaid alimony.
Nevertheless, because of the emancipation of two of the Nusbaums' children, the court reduced his child
support payment to $941.00 per month from January 2010 through August 2010, at $835.00 per month
for September 2010, and established the child support payment at $929.00 per month starting in October
2010.

Sometime in early 2016, Mr. Nusbaum noticed that Georgia allocated his monthly payments differently
from Maryland. Whereas Maryland declared his child support arrears were $80,905.25, Georgia said his
child support arrears were approximately $30,000.00. Mr. Nusbaum discovered that this was because
Georgia allocated a higher percentage of his monthly payment to child support, rather than alimony.
Maiyland did almost the opposite, allocating 70% of his payments to alimony and 30% to child support.
Armed with this information, Mr. Nusbaum returned to Maiyland.
On April 16, 2016, Mr. Nusbaum filed a motion asking the circuit court to order OCSE to do an audit and
establish his arrears for both alimony and child support. Mr. Nusbaum also requested the court to modify
his on-going child support payment because another of the Nusbaums' children had emancipated.! At a
hearing before a Magistrate, Mr. Nusbaum
[243 Md.App. 662]
argued that the circuit court should order OCSE to perform an audit to determine exactly how much he had
paid for both obligations. After the audit, he wanted OCSE to credit all the money he paid be put toward his

3

child support obligation until that obligation was satisfied. Only then, so Mr. Nusbaum argued, should any
excess amount be credited against his alimony obligation. Ms. Nusbaum opposed the reallocation request.
The Magistrate, in a written set of findings, reduced Mr. Nusbaum's on-going
[221 A.3d 1112]
monthly child support obligation to $481.00 per month, plus $120.25 toward his arrears, due to the
emancipation of one of the children. More importantly, the Magistrate determined that the circuit court did
not have the authority to: (1) order OCSE to perform an audit, nor, (2) order OCSE to reallocate Mr.
Nusbaum's prior total payments to exhaust his child support obligation before satisfying his alimony
obligation. "Your Magistrate reviewed the statutes cited by the parties, testimony presented, Plaintiffs
Exhibit 3, and [case cited], and finds that there is no authority given to this Court to alter the Audit in the
manner requested by [Mr. Nusbaum]." Surprisingly however, the Magistrate recommended "that upon
entry of this Order, that child support current and arrearage payments should be given priority over the
alimony obligation, as it is in the best interests of the parties' minor child." OCSE filed Exceptions to the
Magistrate's recommendations.
At the Exceptions hearing, the attorneys for OCSE2 and Mr. Nusbaum set forth their positions. Mr.
Nusbaum wanted all past payments to Ms. Nusbaum reallocated to satisfy his child support obligation first,
rather than be apportioned between alimony and child support, as OCSE had done. Additionally, he wanted
any future payments apportioned to first satisfy child support, then child support arrears, and alimony last.
In Mr. Nusbaum's view, it was in the children's best interests to prioritize the allocation of payments in this
way.
[243 Md.App. 663]
Ms. Nusbaum and OCSE disagreed. The attorney for OCSE noted that Mr. Nusbaum desired the
reallocation because Georgia was "coming after" him for not making full payments to either child support
or alimony. More importantly, OCSE's counsel explained that under current procedures, child support and
spousal support are given equal priority, as the payments are for the benefit of the children and the former
spouse. Additionally, counsel for OCSE explained that it would be too onerous for them to have to manually
adjust each monthly payment and apportion it solely to child support.
Seven days after the hearing, in an oral ruling, the judge "grudgingly" found that the Magistrate erred. The
judge, essentially, agreed with Mr. Nusbaum and ordered OCSE to perform an audit and "allocate and
prioritize all payments first and foremost to the child support obligation as well as any child support
arrears." "Any other remaining payments... shall then be credited towards [Mr. Nusbaum's] alimony
obligation and any outstanding arrearage."
Ms. Nusbaum immediately filed a motion to alter or amend the court's order. Simultaneously, OCSE filed
a motion to reconsider. Ms. Nusbaum argued that there was no evidence presented at the hearing to suggest
that the ordered reallocation was in the children's best interests, as Mr. Nusbaum claimed. Additionally,
both Ms. Nusbaum and OCSE argued that the circuit court should reverse itself because the reallocation
was contrary to "Maryland [l]aw and federal and state regulations regarding child support." OCSE
specifically argued that the court's order placed OCSE in direct violation of federal law, since they were
obligated pursuant to federal statutes and the state's "distribution matrix" to collect spousal and child

4

support without prioritizing one over the other. Mr. Nusbaum opposed altering the court's order in any
way.
[221 A.3d 1113]

The court held a hearing on Ms. Nusbaum's motion to alter or amend judgment and OCSE's motion to
reconsider, after which the court took the matter under advisement. Later, the court issued an "Opinion
and Order" which was a legal analysis of the arguments advanced at the motions hearing. For
[243 Md.App. 664]
reasons not entirely clear, the court re-evaluated Ms. Nusbaum's request for counsel. The record is
ambiguous as to whether the court denied her request or found it to he moot. In any event, the record is
clear that Ms. Nusbaum was represented by counsel at the motions hearing. The court also revisited its incourt ruling denying Ms. Nusbaum's request to allow expert testimony at the hearing. The court determined
that it properly excluded expert testimony.
In its analysis of what the court termed "Motion 2," the reallocation issue, the judge admitted that at the
end of the Exceptions hearing he was "uncomfortable" ordering OCSE to perform an audit and reallocate
Mr. Nusbaum's payments giving priority to satisfying his child support obligation. The judge recalled that
he found OCSE's allocation method, giving equal priority to spousal and child support, to be "inconsistent
with the best interests of the child standard." Based on his reasoning at that time, the judge concluded that
Mr. Nusbaum could not be "estopped" from getting what he wanted. Now, the judge noted that at prior
hearings on Mr. Nusbaum's requests to modify child support, Mr. Nusbaum provided his income tax
returns. The judge found that on those tax returns, Mr. Nusbaum "claimed a deduction from taxable
income, the amount of alimony deemed ‘paid’ by [OCSE]."
In other words, he benefited from an income deduction based upon the veiy method of
alimony payment allocation he now seeks to challenge. Indeed, he secured prior reductions
of child support based upon his stated income at the time - which had been adjusted based
upon a deduction for alimony paid. If he truly felt that all payments should have been applied
to child support first as he now contends, then it is wholly inconsistent to take a corresponding
deduction for alimony paid in prior tax returns. In short, it appears to the Court that Mr.
Nusbaum is trying to "have his cake and eat it too."
After reviewing the holdings of several cases, the judge concluded that Mr. Nusbaum was judicially estopped
from seeking to reallocate past and future child support payments and have them take priority over his
alimony obligation.
[243 Md App. 665]
Significantly, the judge did not answer the question of whether the court had the authority to order OCSE
to reallocate payments in the manner that Mr. Nusbaum requested. Rather, the judge concluded that as Mr.
Nusbaum was estopped from making the request, this threshold question would "have to await another
day."
STANDARD OF REVEIW

5

We review the circuit court's decision using an abuse of discretion standard. "In general, the denial of a
motion to alter or amend a judgment is reviewed by appellate courts for abuse of discretion." RRC
Northeast, LLC v. BAA Maryland, Inc., 413 Md. 638, 673,994 A.2d 430 (20x0) (citing Wilson-X v. Dep't
ofHuman Res., 403 Md. 667,674-75,944 A.2d 509 (2008)). "The relevance of an asserted legal error, of
substantive law, procedural requirements, or fact-finding unsupported by substantial evidence, lies in
whether there has been such an abuse." Wilson-X, 403 Md. at 676,944 A.2d 509.
Nevertheless, a "court's discretion is always tempered by the requirement that the court correctly apply the
law applicable to the case."
[221 A.3d 1114]
Arrington v. State , 411 Md. 524, 552, 983 A.2d 1071 (2009) ; see In re Adoption/Guardianship No.
T97036005,358 Md. 1, 24-25,746 A.2d 379 (2000) (abuse of discretion where trial judge's decision with
respect to discretionary matter "was based on an error of law"); Guidash v. Tome , 211 Md. App. 725, 735,
66 A.3d 122 (2013) (abuse of discretion occurs when court "makes a decision based on an incorrect legal
premise"); Brockington v. Grimstead , 176 Md. App. 327, 359, 933 A.2d 426 (2007) ("an exercise of
discretion based upon an error of law is an abuse of discretion").
DISCUSSION
I. Estoppel Theories
A. Judicial Estoppel
Mr. Nusbaum first asks us to consider whether the circuit court properly determined that he was judicially
estopped
[243 MdApp. 666]
from requesting OCSE to reallocate his child support and alimony payments. He argues that judicial
estoppel is inapplicable, as none of the elements of judicial estoppel apply in his circumstances. OCSE
seemingly admits that judicial estoppel is inapplicable and argues that the allied doctrine of equitable
estoppel should deny Mr. Nusbaum relief.
The circuit court expressly based its ruling on the doctrine of judicial estoppel, and it is there that we begin
our analysis. Judicial estoppel is derived from the doctrine of estoppel by admission in English
jurisprudence. In Eagan v. Calhoun , 347 Md. 72, 698 A.2d 1097 (1997). the Court of Appeals noted that,
"Maryland has long recognized the doctrine of estoppel by admission, derived from the rule laid down by
the English Court of Exchequer ... that ‘[a] man shall not be allowed to blow hot and cold, to claim at one
time and deny at another.’" Id. at 88, 698 A.2d 1097 (citation omitted). Indeed, this Court explained in
Gordon v. Posner, 142 Md. App. 399,424,790 A.2d 675, cert, denied, 369 Md. 180,798 A.2d 552 (2002),
that "[j]udicial estoppel, also known as the ‘doctrine against inconsistent positions,’ and ‘estoppel by
admission,’ prevents ‘a party who successfully pursued a position in a prior legal proceeding from asserting
a contrary position in a later proceeding.’" Roane v. Washington Co. Hosp., 137 Md. App. 582, 592, 769
A.2d 263, cert, denied, 364 Md. 463, 773 A.2d 514 (2001). Judicial estoppel, therefore, "precludes a party
from taking a position in a subsequent action inconsistent with a position taken by him or her in a previous
action." Dashiell v. Meeks, 396 Md. 149,170,9x3 A.2d 10 (2006).

6

Three circumstances must exist before judicial estoppel will be used to foreclose a party's claim:
(l) one of the parties takes a position that is inconsistent with a position it took in previous
litigation, (2) the previous inconsistent position was accepted by a court, and (3) the party
who is maintaining the inconsistent positions must have intentionally misled the court in
order to gain an unfair advantage.
[243 Md.App. 667]
Bank ofNew York Mellon v. Georg , 456 Md. 616, 625,175 A.3d 720 (2017) (quoting Dashiell, 396 Md. at
170, 913 A.2d 10 (citation omitted)); Blentlinger, LLC v. Cleanwater Linganore, Inc ., 456 Md. 272, 297,
173 A-3d 549 (2017).
We have noted that judicial estoppel performs two important functions. First, the doctrine "rests upon the
principle that a litigant should not be permitted to lead a court to find a fact one way and then contend in
another judicial proceeding that the same fact should be found otherwise." Gordon , 142 Md. App. at 425,
790 A.2d 675 (internal quotations and citations omitted). Judicial estoppel ensures "the ‘integrity of the
judicial process by
[221 A.3d 1115]
> »1

‘prohibiting parties from deliberately changing positions according to the exigencies of the moment [.]
New Hampshire v. Maine , 532 U.S. 742,121 S.Ct. 1808,149 L.Ed.2d 968, (2001) (citation omitted); see
also Dashiell, 396 Md. at 171, 913 A.2d 10 (explaining the doctrine is used "to protect the integrity of the
judicial system from one party who is attempting to gain an unfair advantage over another party by
manipulating the court system."). The Court of Appeals has explained that
[i]f parties in court were permitted to assume inconsistent positions in the trial of their causes,
the usefulness of courts of justice would in most cases be paralyzed; the coercive process of
the law, available only between those who consented to its exercise, could be set at naught by
all.... It may accordingly be laid down as a broad proposition that one who, without mistake
induced by the opposite party, has taken a particular position deliberately in the course of
litigation, must act consistently with it; one cannot play fast and loose.
WinMark Ltd. P'ship v. Miles and Stockbridge, 345 Md. 614,620,693 A.2d 824 (1997) (internal quotations
and citations omitted). The Supreme Court cautioned, however, that it was "not establishing] inflexible
prerequisites or an exhaustive formula for determining the applicability of judicial estoppel." New
Hampshire, 532 U.S. at 751,121 S.Ct. 1808. To the contrary, it observed that "[additional considerations
may inform the doctrine's application in specific factual contexts."
[243 Md.App. 668]
Id. Therefore, the chief goal of judicial estoppel is to preserve the integrity of the judicial process by
precluding a litigant from taking one position in a legal proceeding and taking a contrary position in another
legal proceeding. See Civil Procedure Intent and the Application ofJudicial Estoppel: Equitable Shield or
Judicial Heartbreak?, Dodd, Brian A., 22 AMJTA 481, Fall, 1998.

7

A subsidiary function that judicial estoppel performs is to protect the party seeking the estoppel. The Court
of Appeals has recognized that in addition to protecting the judicial system, judicial estoppel seeks to
preserve " ‘the relationship between the parties to the prior litigation.’" WinMark Ltd. P’ship, 345 Md. at
623,693 A.2d 824 (citation omitted).
B. Equitable Estoppel
Equitable estoppel, on the other hand, has been defined as the
effect of the voluntary conduct of a party whereby he is absolutely precluded both at law and
in equity, from asserting rights which might perhaps have otherwise existed, either of
property, of contract, or of remedy, as against another person, who has in good faith relied
upon such conduct, and has been led thereby to change his position for the worse and who on
his part acquires some corresponding right, either of property, of contract, or of remedy.
3 J. Pomeroy, Equity Jurisprudence, § 804 (5th ed. 1941), quoted in Leonard v. Sav-A-Stop Services, 289
Md. 204,211,424 A.2d 336 (1981). InKnill v. Knill, 306 Md. 527,510 A.2d 546 (1986), the Court of Appeals
noted that the doctrine "is comprised of three basic elements, ‘voluntary conduct’ or representation,
reliance, and detriment." Id. at 535,510 A.2d 546.
In Creveling v. Government Employees Insurance Co. , 376 Md. 72, 828 A.2d 229 (2003), the Court of
Appeals held that a putative class's equitable estoppel claim was not satisfied. The appellant alleged that an
insurance company's representations
[243 Md.App. 669]
"likely" led putative class members to not retain documentation required for reimbursement. Id. at 101,828
A.2d 229. The Court found that because appellants
[221 A.3d 1116]
did not provide any evidence, "any prejudice or detrimental reliance suffered by the putative class is purely
speculative." Id. at 103, 828 A.2d 229. Further, it said "any prejudice is dubious because even if claimants
lost their medical bills or treatment records, they likely could reconstitute those records by contacting the
medical providers." Id.
C. The Difference Between Judicial and Equitable Estoppel
We have previously described the difference between judicial estoppel and equitable estoppel. "[T]he
former focuses on the connection between litigants and the judicial system, and the latter focuses on the
relationship between the parties." United Book Press, Inc. v. Maryland Composition Co ., 141 Md. App.
460,471-472,786 A.2d 1 (2001). Interestingly, "Maryland courts frequently have addressed both concerns
under the unified label of judicial estoppel." Gordon , 142 Md. App. at 426, 790 A.2d 675. "Indeed, both
aspects of judicial estoppel are expressed consistently injudicial summaries of the doctrine. ‘[A] party will
not be permitted to occupy inconsistent positions or to take a position in regard to a matter which is directly
contraiy to, or inconsistent with, one previously assumed by him, at least where he had, or was chargeable
with, full knowledge of the facts and another will be prejudiced by his action.’" Stone v. Stone , 230 Md.
248,253,186 A.2d 590 (1962) (quoting 19 AM. JUR. Estoppel § 50); see also Roane v. Washington County

8

Hospital, 137 Md. App. 582, 592, 769 A.2d 263 (2001) ("The gravamen of a judicial estoppel claim is one
party's inconsistency prejudicing his or her opponent's case.").
D. Neither Judicial nor Equitable Estoppel is Applicable Here
In this case, the circuit court specifically found that judicial estoppel precluded Mr. Nusbaum from
requesting reallocation
[243 Md.App. 670]
of his support payments. The circuit court found that because Mr. Nusbaum claimed part of those
payments as alimony on his federal and state tax returns and lowered his taxable income, he could not
now change positions and request that the same payments be deemed child support. Further, when the
court initially calculated child support, the full amount of alimony—$3,250.00—was treated as income to
Ms. Nusbaum and a loss of income to Mr. Nusbaum, resulting in a lower amount of child support for Mr.
Nusbaum. Thus, in the circuit court's view, where Mr. Nusbaum had previously benefitted from claiming
part of his payments as alimony, he was judicially estopped from re-casting all of it as child support.
We conclude that although Mr. Nusbaum claimed part of his payments to Ms. Nusbaum as alimony on his
income tax returns, that is not the same thing as taking an inconsistent position in different litigation, the
first element of the doctrine of judicial estoppel. In each Maryland case where judicial estoppel was
invoked, regardless whether the doctrine applied or not, the salient fact is that one party took opposing
factual positions in different lawsuits.
For example, in Eagan, two children, through their guardian, asserted a wrongful death action against
their father for killing their mother. 347 Md. 72,698 A.2d 1097 (1997). The Court of Appeals held that the
father was judicially estopped from asserting parent-child immunity. Id. at 88,698 A.2d 1097. The father
asserted that he had not abandoned the parental relationship with the children. Id. at 81,698 A.2d 1097.
The Court held that his plea of guilty to voluntary manslaughter in the related criminal case was sufficient
to prevent him from denying that he intentionally killed the children's mother.
[221 A.3d 1117]
Id. at 88,698 A.2d 1097. Similarly, in Gordon , in a dispute between siblings over their mother's estate,
we held that the brother was not judicially estopped from asserting how payments of estate taxes were
made in that lawsuit even though he made a different assertion in another case. 142 Md. App. at 428-429,
790 A.2d 675. And, in Mathews v. Underwood-Gary, 133 Md. App. 570,578-580,758 A.2d 1019 (2000),
the appellee claimed in a motor tort action in one county that she needed a
[243 Md App. 671]
bone fusion, yet claimed the same surgery was unnecessary in a different lawsuit in a neighboring county.
We held that she was judicially estopped from asserting opposing factual positions. Id.
In this case, while Mr. Nusbaum claimed a deduction for "alimony paid" on his income tax filings for
several years, he did not do so in a different legal proceeding. First, submission of an income tax return is
not a legal proceeding. More pertinent, the fact that the circuit court received Mr. Nusbaum's income tax
returns at prior modification of child support hearings, does not alter the fact that those hearings all took
place within this same case, not a different one. As we have observed, payment of child support is an
ongoing obligation which is always subject to the circuit court's modification. Prince Geo. Co. Office of
Child Support Enforcement ex rel. Polly v. Brown , 236 Md. App. 626,634,182 A.3d 335 (2018) ("[T]he
non-custodial parent remains ‘under a continuing obligation to provide for the support of his children
until such time as the order [i]s modified.’"); Newkirk v. Newkirk, 73 Md. App. 588,596-97,535 A.2d
947 (1988). We conclude that Mr. Nusbaum seemingly has taken contrasting positions in the same child
support action. Consequently, we cannot find that the first element of judicial estoppel has been met.
For similar reasons, we find that the second element of judicial estoppel cannot be satisfied. Although Mr.
Nusbaum claimed part of his overall payments to Ms. Nusbaum as alimony on his income taxes, that fact
was not "a position accepted by the court." It is understood that when the circuit court calculated the
Child Support Guidelines, both Mr. and Ms. Nusbaum used the alimony payment to determine their
adjusted monthly income. In other words, on the Guidelines worksheet the alimony payment is credited
as income to Ms. Nusbaum and credited against Mr. Nusbaum's income. The use of the alimony payment
in a Child Support Guidelines calculation is not a court-acknowledged assertion made during litigation in

9

a different case. When the circuit court received Mr. Nusbaum's income tax returns into evidence at
previous
[243 Md-App. 672]
child support modification hearings, it did so at different phases of the same case. In the application of
judicial estoppel, to take "a position accepted by the court," means something akin to the father's guilty
plea to voluntary manslaughter in Eagan . Once the father admitted his guilt in the criminal case, he was
judicially estopped from asserting a different position in his children's wrongful death action against him.
347 Md. at 88,698 A.2d 1097. Here, as noted, Mr. Nusbaum is taking contrasting positions in the same
ongoing litigation.
It is a closer call whether Mr. Nusbaum intentionally misled the court "to gain an unfair advantage," the
third element of judicial estoppel. Ms. Nusbaum and OCSE argue that Mr. Nusbaum seeks reallocation of
all his payments as child support to make it more difficult for Ms. Nusbaum to collect on her alimony
payments. OCSE noted at the hearing on the motions to alter, amend, or modify, that once Mr. Nusbaum's
child support obligation is satisfied, OCSE must step away from collecting the alimony payments. Ms.
Nusbaum
[221 A.3d 1118]
will have to use her own resources to haul her former husband into court to collect on the unpaid alimony,
which totaled well over $400,000.00 at the last hearing. While arguably this is the case, we shall hold that
because the court could not establish the first two prongs of judicial estoppel, the court erred in its
application of the doctrine on these facts.
We have previously noted that the doctrines of judicial estoppel and equitable estoppel intertwine. In
Gordon we noted "a significant relationship" between judicial estoppel's concern for judicial integrity and
equitable estoppel's concern for prejudice to one party in litigation. 142 Md. App. at 426,790 A.2d 675.
We looked to New Hampshire v. Maine , 532 U.S. 742,121 S.Ct. 1808,149 L.Ed.2d 968 (2001) for
guidance to determine when a claim may be barred by judicial or equitable estoppel. Id. We recognized
that both doctrines were concerned with judicial integrity and prejudice. Id. Quoting New Hampshire, we
noted that "[a] third consideration is whether the party seeking to assert an inconsistent position would
derive an unfair advantage or impose an unfair detriment on the opposing party if not estopped."
[243 MdApp. 673]
142 Md. App. at 426-427,790 A.2d 675 (quoting New Hampshire, 532 U.S. at 751,121 S.Ct. 1808).
We turn our attention to the latter's application to the facts of this case. As stated, equitable estoppel
exists when there is 1) voluntary conduct or representation, 2) reliance, and 3) detriment. Knill, 306 Md.
at 535,5ioA.2d 546.
OCSE asserts that Mr. Nusbaum's acceptance of its allocation of his payments toward alimony, and for
purposes of reducing his taxable income, amounts to the first element of voluntary conduct. OCSE also
asserts that Ms. Nusbaum relied on Mr. Nusbaum's voluntary acceptance of its allocation by accepting the
increase in her income and the corresponding reduction in child support received due to the alimony she
received. Finally, OCSE says reallocation would harm Ms. Nusbaum because she could not recover the
additional amount of child support she would have been awarded before the alimony allocation reduced
Mr. Nusbaum's income, and that she will likely pay more taxes on any alimony she receives in the future,
since she will likely return to the workforce.
Mr. Nusbaum counters that Ms. Nusbaum did not rely on a voluntary representation he made, since his
acceptance of the allocation was something that OCSE forced on him. He further contends that the
detriment claimed by Ms. Nusbaum relates only to funds she will not receive if the payments are
reallocated, rather than to any money she lost by virtue of her reliance on the allocation in effect.
We conclude that Ms. Nusbaum falls short on the detriment factor, due to our inability to definitively say
whether her reliance on the allocation of alimony "led [her] to change [her] position for the worse." Steele
v. Diamond Farm Homes Corp., 464 Md. 364,381, 211 A.3d 411 (2019). Whether Ms. Nusbaum will
ultimately "net" less under the current allocation structure, or as a result of the reallocation requested by
Mr. Nusbaum, is too speculative an issue to satisfy the detriment requirement. Such an equation would
necessarily account for the amount her taxable income increased due to alimony received, the amount of
money she forfeited in child
[243 Md App. 674]
support by accepting alimony, whether she returns to the workforce and the corresponding effect on her
tax bracket and whether she receives the owed alimony payments in the future, and so on. Given that

10

some of these events have not yet come to pass, it would be impossible to prove at this time whether it
would have been to Ms. Nusbaum's detriment to rely
[22t A.3d 1119]

on the current allocation structure if it were revised. This does not mean we do not recognize the serious
inconveniences that would befall Ms. Nusbaum, as well as the additional risks she would face were
payments to be reallocated. But these speculative events are not conclusive enough for us to satisfy the
detriment factor as it exists in the doctrine of equitable estoppel.
With detrimental reliance not satisfied, we do not reach the issue of whether Mr. Nusbaum's acceptance of
the allocation was voluntary conduct. Instead, we proceed to an analysis of MCSA and OCSE's separation
of powers argument.
II. Separation of Powers
OCSE argues that separation of powers prevents us from dictating to the executive branch how to apply
support payments. OCSE further contends that the MCSA's bureaucratic process makes allocating support
in a manner other than current support first, and support arrearages second, impossible. Mr. Nusbaum
counters that OCSE's separation of powers argument disregards the importance of checks and balances,
and that separation of powers does not prevent a court from exercising its power "to review and correct
actions by an administrative agency which are arbitrary, illegal, and capricious or unreasonable," citing
Criminal Injuries Compensation Bd. v. Gould, 273 Md. 486,500-01,331 A.2d 55 (1975). As further support
of this point, Mr. Nusbaum contends that the best interests of the child control, and that OCSE's allocation
method does not favor the child's bests interests.
Separation of powers issues are jurisdictional; consequently they may be considered on appeal even if not
raised below.
[243 Md-App. 675]
Montgomery County Office ofChild Support Enforcement ex rel. Cohen v. Cohen, 238 Md. App. 315,33334,192 A.3d 788 (2018) (hereafter" Cohen ").
For the reasons that follow, we find that we should nevertheless sustain the judgment of the circuit court
due to the separation of powers doctrine.
A. Separation of powers precludes the Court from interfering with the executive agency's
lawful administrative authority and discretion
Under the separation of powers doctrine, the courts may not interfere with OCSE's allocation method if it
is lawful. Article VIII of the Maryland Declaration of Rights provides:
That the Legislative, Executive and Judicial powers of Government ought to be forever
separate and distinct from each other; and no person exercising the functions of one of said
Departments
shall
assume
or
discharge
the
duties
of any
other.
Md. Const., Decl. of Rts., art. VIII.

11

In Department ofNatural Resources v. Linchester Sand & Gravel Corp., our Court of Appeals specifically
addressed the constraints of judicial review of executive agency functions:
[T]he judiciary has an undeniable constitutionally-inherent power to review, within limits,
the decisions of these administrative agencies. This power of review ... cannot be a
substitution of the court's judgment for that of the agency. In those instances where an
administrative agency is acting in a manner which may be considered legislative in nature
(quasi-legislative), the judiciary's scope of review of that particular action is limited to
assessing whether the agency was acting within its legal boundaries ...
[221 A.3d 1120]

[Furthermore, when an agency is acting in a fact-finding capacity (quasi-judicial) the courts
review the appealed conclusions by determining whether the contested decision was rendered
in an illegal, arbitraiy, capricious, oppressive or fraudulent manner.
[243 Md.App. 676]
274 Md. 211,223-24,334 A.2d 5x4 (1975). We find the guidance on judicial review of an executive agency's
quasi-legislative functions most relevant to the court's ability to review and potentially OCSE's method of
allocation of payments.
In Cohen , cited by OCSE, we articulated that the judicial branch cannot stand in the way of the executive
branch in carrying out a mandatory statutory duty. 238 Md. App. 315,192 A.3d 788 (2018). Mr. Cohen, the
noncustodial parent, had to pay Ms. Cohen, his ex-wife and mother of his two children, $800 per month in
child support. Id. at 320,192 A.3d 788. By June 30, 2014, two years after the divorce order, Mr. Cohen
owed $8,000 in child support arrears. Id. After changing venues, the Circuit Court for Montgomery County
ordered Mr. Cohen to pay $200 additional dollars per month exclusively for child support arrears, and an
Earnings Withholding Order. Id.
Two years later, the Montgomery County Office of Child Support Enforcement ("MCOOCSE") filed a motion
to modify child support because one of the two children had reached the age of adulthood. Cohen, 238 Md.
App. at 321, 192 A.3d 788. After lowering the child support obligation monthly by consent, the court
addressed Mr. Cohen's accumulating arrears of child support. Id. By now, Mr. Cohen owed $21,733.22 in
child support arrears. Id. Mr. Cohen's current support was lowered but the amount exclusively for arrears
was increased by $109 (now $3C>9/month). Id. After applying one lump sum of support totaling $3,000,
Mr. Cohen applied for a passport. Id. The United States Department of State denied the passport request
because of the support arrears. Id. Mr. Cohen petitioned the circuit court to release the hold on his passport.
Id. He asserted that, because he was not paying for his travel which required a passport, the intent of the
passport hold law was not to deny him a passport. Id. at 322, 192 A.3d 788. Instead, the intent of the
passport hold law was to deny those who possessed funds to travel the opportunity to do so until they paid
their child support arrears. Id. One of the reasons the MCOOCSE opposed the petition is that the Maryland
Child Support Enforcement officials had a statutory duty not to
[243 Md.App. 677]
release the passport hold since Mr. Cohen did not meet the exigency exception. Id. The circuit court
disagreed and ordered the passport released. Id. at 323,192 A.3d 788.

12

We reversed the circuit court's order because we determined that the MCOOCSE had an affirmative duty to
deny access to the passport, regardless of who was paying for Cohen's travel. Cohen, 238 Md. App. at 34041,192 A.3d 788. Maryland's regulations create an affirmative duty for this state's Administration to inform
the federal government of child support obligors in arrears. Id.; COMAR 07.07.17.02(A). The circuit court,
we held, had no authority to order the MCOOCSE to release a passport that MCOOCSE was statutorily
required to hold. Id. Essentially, it was not the proper role of the judiciary under separation of powers to
order an executive branch agency to act contraiy to its statutoiy mandate. Id.
OCSE also cites Harvey v. Marshall as an example of where the Court of Appeals expressly chose not to
dictate to the MCSA how to apply support payments. There, Harvey, who originally was the noncustodial
parent, had become the custodial parent.
[221 A.3d 1121]

389 Md. 243, 249, 884 A.2d 1171 (2005). Harvey rarely paid child support as the noncustodial parent and
the MCSA sought to continue to enforce the child support arrears even though Harvey was the custodial
parent. Id. at 250, 884 A.2d 1171. The Court of Appeals ultimately held that it was not "arbitrary and
capricious" for MCSA to refuse to change the way it applied support payments based on how its computers
are programmed to apply the payments. Id. at 314, 884 A.2d 1171. The opinion empathizes with the MCSA,
recognizing that because it must process payments from many obligors, changing coding in a few instances
is infeasible. Id. Harvey supports the proposition once more that the court may not order an executive
agency to change a lawful process it implements in carrying out a statutory duty, particularly where making
such a change would be unreasonably difficult or impossible.
[243 MdApp. 678]
Gould, cited by Mr. Nusbaum to counter OCSE's separation of powers argument, provides nothing contrary
to these principles. There, the Court of Appeals affirmed the circuit court's right to judicial review of a
decision made by the Criminal Injuries Compensation Board, in a "proceeding ‘before an agency in which
the legal rights, duties, or privileges of specific parties are required by law or constitutional right to be
determined after an agency hearing.’ " 273 Md. at 493-94. 331 A.2d 55. The Court also reaffirmed its
position that "the Legislature cannot divest the courts of the inherent power they possess to review and
correct actions by an administrative agency which are arbitrary, illegal, capricious or unreasonable."
Although the "illegal, capricious, or unreasonable" standard appears to apply more specifically to review of
an administrative agency's quasi-judicial functions, Dep't ofNatural Resources , 274 Md. at 223-24, 334
A.2d 514, it nonetheless does not contradict the point that the judiciary should not interfere with an
executive agency's lawful exercise of its discretion.
We conclude that so long as an executive agency's method of carrying out a statutory mandate is lawful, we
are precluded from ordering the agency to restructure that method. The question that necessarily follows is
whether OCSE's method of allocation is lawful.
B. OCSE's Allocation of Support Payments is Legally Correct Under Both Federal and
Maryland State Law
Mr. Nusbaum argues that, consistent with state and federal laws, his payments should be paid first to
current child support, then to child support arrearages, followed by current alimony, and then finally to
alimony arrearages. Conversely, Ms. Nusbaum, joined by OCSE, maintain that current child and spousal

13

support are to be paid first, concurrently, followed by any arrearages owed (both child and spousal, or
simply "family support"). Both parties base their respective arguments on, namely, federal family support
statutes, tax, and bankruptcy laws, albeit with divergent conclusions. The
[243 Md App. 679]
circuit court never addressed these issues because of the estoppel issues discussed earlier. We address them
here for the first time.
We hold OCSE's allocation of support payments, first to current child support, second to current alimony
support, and third to arrearages of both alimony and child support, to be legally correct. First, Maryland
family support laws are guided by federal law. The applicable federal law prioritizes current support
obligations over arrearages and establishes that spousal and child support obligations are given equal
priority. Federal law also indicates equal prioritization of child and spousal support. Maryland law
accordingly prioritizes
[221 A.3d 1122]

current support payments before arrearages, and recognizes, in related contexts, that both child and spousal
support obligation are forms of "intra-familial support" of equal importance. Therefore, OCSE's method of
allocating payments to all (child and spousal) current obligations, before any arrearages, is legally correct.
1. Maryland's allocation method is consistent with federal law
Maryland receives direction over child and spousal support from federal law. Title IV-D of the Social
Security Act, 42 U.S.C. §§ 651 et seq. (1998) conditions state receipt of federal funding upon the state's
passage of these provisions. As such, each state is required to "establish and operate a unit ... for the
collection and disbursement of payments under support orders [.]" Id . at § 654(a)(1); see § 654(a)(2)(A).
In response, Maryland created the Child Support Administration section of the Department of Human
Resources to cany out the state's coordination of family support enforcement. See Maryland Code
Annotated, (1984, Repl. Vol. 2107), Family Law Article ("F.L.") § 10-106. Federal law further mandates that
each state disbursement unit establish procedures "for receipt of payments from parents, employers, and
other States, and for disbursements to custodial parents and other obligees, the State agency, and agencies
of other States," 42 U.S.C. § 654(b)(1), in order to "ensure prompt disbursement of the
[243 Md.App. 680]
custodial parent's share of any payment [.]" Id. at (b)(2). Maryland implemented such measures in
Maryland Code, Family Law Article, Title 10, Subtitle 1, Part I.
Additional guidance for such procedures implemented by states can be found in Title 45 of the Code of
Federal Regulations ("CFR"), which covers public welfare regulations. Therein, Subtitle B, Chapter III,
concerns the Office of Child Support Enforcement and the standards for program operations. Part 302
requires that, in all state plans, any support amounts collected and distributed in a IV-D case
shall be treated first as payment on the required support obligation for the month in which
the support was collected and if any amounts are collected which are in excess of such amount,

14

these excess amounts shall be treated as amounts which represent payment on the required
support obligation for previous months.
45 CFR § 302.51(a)(1) (emphasis supplied).
If a state agency collects a support amount that "represents payment on the required support obligation for
future months, the amount shall be applied to such future months." Id. at (b). However, a state plan may
not allocate any support amount to future support obligations "unless amounts have been collected which
fully satisfy the support obligation under section 403(a)(8) of the Act for the current month and all past
months." Id.
2. Federal allocation methods are part of an established statutory scheme in Maryland
The Maryland Code Family Law Article has further adopted federal law pursuant to the Personal
Responsibility and Work Opportunity Reconciliation Act of 1996 ("Act"). Then-President Bill Clinton signed
the Act into law with the purpose of promoting, among other things, "tough personal responsibility and
child support enforcement measures." Statement by the President, William J. Clinton, The White House
(August. 22, 1996) (https://bit.ly/3726A0S). The Act required all states to adopt the 1993 Uniform
Interstate
[243 Md.App. 681]
Family Support Act ("UIFSA") Model Act and the 1996 amendments adopted by the National Conference
of Commissioners on Uniform State Laws. UIFSA was founded upon four main principles, including, "[the]
determination
[221 A.3d 1123]
of one controlling order when multiple support orders exist; [the] determination of the state with
prospective jurisdiction over the support obligation (known as Continuing Exclusive Jurisdiction, or CEJ);
[and the] simplification of support obligations[.]"s Charles J. Muskin, Uniform Interstate Family Support
Act, MARYLAND BAR JOURNAL, 35 Md. B.J. 54 (Januaiy/Februaiy 2002). Effective January 1, 1997,
Maryland codified the UIFSA in Maryland Code, Family Law Article, Title 10, entitled the Maryland
Uniform Interstate Family Support Act ("MUIFSA").^
Part II of the enforcement subtitle establishes the MCSA and states its duties. The "Child Support
Administration" is a component of "the Department of Human Services." F.L § 10-106.5 The relevant Duties
of the MCSA are to: "coordinate a statewide program for support enforcement", "cooperate with other states
in establishing and enforcing child support obligations", and "collect and disburse support payments
through the State disbursement unit established under 10-108.7 of this subtitle." F.L §§ io-io8(a)(i); 10108(a)(7); io-io8(a)(8).6 Section 10-108.7 ”establish[es] a State disbursement unit for collection and
disbursement of support payments" when, relevant
[243 MdApp. 682]
here, "an employer is required to send payments to a support enforcement agency." Section 10-114 outlines
the duties of the Secretary of Human Resources as it relates to support enforcement. One of those duties is
to "adopt rules and regulations for the collection of support." Id. Given the oversight of the Department of

15

Human Services, its Secretary, and civil servants at the Department and in the Administration, the General
Assembly mandates the Administration "promote and serve the best interests of the child in carrying out
their child support responsibilities." FL § 10-118.
Mr. Nusbaum is subject to an Earnings Withholding Order. Part III of MUIFSA instructs us regarding
earnings withholdings for child and spousal support. An "earnings withholding order" is "an order in a
format prescribed by federal law issued by a tribunal to an employer requiring the employer to deduct
support payments from the earnings of an obligor." F.L. § 10-120. A Tribunal is, "a court... authorized to
establish, enforce, or modify support orders or to determine parentage of a child." FL § io~30i(dd).2 Support
subject to earnings withholding is: "(1) child support; (2) spousal support; (3) nondifferentiated child and
spousal support; and (4) any medical support ordered by the court." FL § io-i2o(d)(i)-(4). Under Section
io-i2i(a), the Earnings Withholding Order is "immediate and continuing" on all earnings of the obligor.
The Article further specifies
[221 A.3d 1124]
how much must be withheld from obligors for both current support and arrearages:
(a) The amount of the earnings withholding shall:
(1) be enough to pay the support and any arrearage included in the payments required by
the support order; and
(2) include any arrearage accrued since the support order.
***

[243 Md.App. 683]
(b)(i)(i) When arrearages under subsection (a)(2) of this section are part of an earnings
withholding order or earnings withholding notice, the total arrearage withheld shall be in one
lump-sum payment or apportioned over a period of time.
F.L. § 10-122.
Additionally, when the parent or spouse is out of state and more than 30 days in arrears on their support
obligation, the Administration "shall... send to the appropriate [out of] state agency or [out of state] court
a request for earnings withholding and any information and fees required by that state to process the
request." F.L. § 10-137.
Maryland's calculation of child support is structured in Family Law Article Title 12. Subtitle I describes the
nuances of assessing child support and Subtitle II provides the guidelines to calculate child support. One of
the rules for assessing child support regarding modifications is that courts are generally prohibited from
"retroactively modifying a child support award prior to the date of the filing of the motion for modification."
F.L. § 12-104O)). The first section of the child support guidelines defines key terms. Relevant to our analysis
is "adjusted actual income," defined as "actual income minus (1) preexisting reasonable child support
obligations actually paid; and (2) except as provided in F.L. § i2-2C>4(a)(2) of this subtitle, alimony or
maintenance obligations actually paid." In turn, F.L. § i2-204(a)(2) says that alimony is determined first,

16

and then actual income is determined for the appropriate level of child support by deducting the alimony
amount from actual income.
Maryland Code, Family Law Article, Title 10 has been codified into Title 7, Subtitle 7 of the Code of Maryland
Regulations. See COMAR 07.07.01 et seq. A few separate points from the Code itself are worth mentioning.
The Code explains that the distribution of support is governed primarily by the Social Security Act and its
regulations. COMAR 07.07.07.02(B)(1). Chapter 1, containing definitions relating to Child Support
Enforcement, defines "support" as "child support or spousal support," COMAR 07.07.01.02(6X30), and
[243 Md.App. 684]
"current support" as "the amount of monetary support owed, on behalf of a child, spouse, or former spouse,
on a regular interval as specified by a court." COMAR 07.07.01.02(B)(6).
Chapter 19 is relevant as it provides the framework for administrative earnings withholding, COMAR
07.07.19.01, and comes into effect when the MCSA is the intermediaiy for providing collection and
disbursement of child support or when the obligor requests that the MCSA do the work. COMAR
07.07.19.03(A). Here, support is defined as, "(1) Child Support; (2) Spousal Support if included in an order
for child support; (3) Nondifferentiated child and spousal support; and (4) Any medical support ordered by
a court" including some medical expenses not relevant here. COMAR 07.07.19.02(B)(4). The Code also
implies a more specific prioritization of support obligations than that provided in F.L. § 10-122, explaining
the "total amount withheld shall be sufficient to pay:
(1) Any current support obligation as specified in the support order;
[221 A.3d 1125]
(2) Any amount specified in the support order to be applied toward arrearages existing at
the time the court issued the support order; and
(3) Any amount to be determined by the Administration to be applied toward the arrearage
accumulated after the issuance of the support order."
COMAR 07.07.19.04. Maryland therefore prioritizes both current child and spousal obligations before
arrearages of both child and spousal support.
3. Federal regulations require prioritization of current support obligations over arrearages
45 CFR § 302.51(a)(1) requires that OCSE prioritize collection of current support payments before
arrearages. Recall this regulation requires that, in all state plans, any support amounts collected and
distributed in a IV-D case
shall be treated first as payment on the required support obligation for the month in which
the support was collected and if any amounts are collected which are in excess of such amount,
these excess amounts shall be treated as amounts
[243 Md-App. 685]
which represent payment on the required support obligation for previous months.

17

45 CFR§ 302.51(a)(1).
As noted, Maryland created an Office of Child Support Enforcement in each county to carry out the state's
coordination of family support enforcement in order to receive federal funding under Title IV-D of the
Social Security Act. Thus, these federal allocation requirements apply to the OCSE in Carroll County. And
as they suggest, OCSE interprets and applies them in the MCSA's policy manual where it codes each type of
support to automatically prioritize funds when payments are supplied: first to current child and second to
spousal support, then third to support arrearages.2
Federal law is clear that support payments are allocated toward current obligations before past due
obligations. The question that follows is that which is the greatest point of contention between the parties:
whether Maryland law is correct in allocating payments toward current spousal support before child
support arrearages.
4. Applicable federal law does not distinguish between child and spousal support in determining the
allocation ofpayments
The legislative history surrounding the federal Office of Child Support Enforcement's requirements for state
plans, as
[243 Md-App. 686]
well as the text of the provisions themselves, indicates that federal law also does not distinguish between
child and spousal support in prioritization of payments. In 1981, Congress amended Title IV-D to authorize
[221 A.3d 1126]
child support agencies to also collect alimony. Pub. L. 97-35 § 2332 (Aug. 13, 1981); Pub. L. 97-248 §
171(a)(1) (Sept. 3, 1982). The United States Department of Health and Human Services ("HHS")
implemented these amendments through a final rule titled " Child Support Enforcements ProgramCollection of Support for Certain Adults." 47 Fed. Reg. 57277-01 (Dec. 23, 1982). The rule effectively put
child support and spousal support in parity:
We are implementing the statutory requirements by adding or deleting language in the
existing regulations to extend collection and enforcement provisions to include spousal
support. To the extent possible, we are simply deleting the word "child" wherever it appears
before the word "support" to indicate that the regulatory provision applies to any support
collected or enforced. However, in certain circumstances, this approach is not possible and
alternative language is used for clarity.
Id. at 57278-79. HHS required that all alimony payments be made through the state support enforcement
agency and "in accordance with the requirements of 45 C.F.R. § 302.51." Id. at 57278. The rule also listed
"302.51 Distribution of child support collections" as one section where such changes were "necessary... to
include spousal support in the State plan requirements addressed in each section." Id. at 57279.
Accordingly, § 302.51, now "Distribution of support collections," contains no mention of the word "child"
or "spousal" before its many references to "support." In the absence of "alternative language ... used for
clarity," the use of "support" on its own should therefore "indicate that the regulatory provision applies to
any support collected or enforced." 47 Fed. Reg. 57278-79. Thus, the requirement that current support

18

obligations are to be paid before arrearages under § 302.51(a)(1) supports the prioritization of both current
child and spousal obligations before arrearages of either.^
[243 Md.App. 687]
5. Federal tax law does not preempt the support allocation scheme
Mr. Nusbaum emphasizes federal tax law as the foundation of his argument that all child support is to be
paid off before allocating any funds to alimony. Section 71 of the Internal Revenue Code provides a
distinction between alimony/maintenance payments and child support.^ 26 U.S.C.A. § 71 (b) - (c) (2017,
repealed 2019). Mr. Nusbaum points to some U
United States Tax Court cases demonstrating this distinction. For example, in Blyth v. Commissioner, 21
T.C. 275 (1953), the father's payments to the mother were less than the full amount of support owed in the
previous tax year. The court held the funds paid were to be considered child support up to the designated
amount owed for the year, and only the excess of that
[221 A.3d 1127]
amount could be deducted as alimony. Id. at 279. Similarly, in Proctor v. Commissioner , 129 T.C. 92
(2007), a divorce decree required the non-custodial father to pay the mother $2,687 for their children's
uninsured medical expenses and $5,313 for alimony in 2002. Id. at 94-95. The father paid only $6,074 and
deducted the entire sum as alimony on his taxes. Id. The court held that pursuant to § 71(c)(3), $2,687 of
the $6,074 was to be treated as child support, and only the remaining $3,387 should have been deducted
as alimony. Id. at 95-96.
While these cases do support the proposition that alimony cannot be deducted from income when the
obligor has not paid
[243 Md.App. 688]
his full child support obligations for the year, we do not find them dispositive in this case. Mr. Nusbaum
did not bring this suit to challenge the imposition of a tax penalty based on a claim that he incorrectly
deducted as alimony funds that were otherwise allocated by the State as child support. In Blyth and Proctor
, the Court was not deciding upon the prioritization of funds involving arrearages from years preceding the
relevant tax year. And the respondent in both cases was the Commissioner of Internal Revenue; the former
spouse was not a party to either suit, and so no challenge was brought as to the actual distribution of the
payments. Mr. Nusbaum's tax filings were raised only to show he had previously relied on the State's
allocation of his payments toward alimony before satisfying all child support arrearages in order to reduce
his taxable income.
While any change to the current allocation of Mr. Nusbaum's payments would have tax implications, the
matter before us is not a tax issue. Not only is this not the relief sought by either party, but it simply does
not withstand reason that we might rely solely on tax code to determine that a state agency has incorrectly
structured its family support program—a program enacted pursuant to separate federal law that does not
specify an allocation method that reflects the prioritization in the tax code. If Mr. Nusbaum seeks a
reallocation of his past payments for tax purposes, the U.S. Tax Court is the appropriate forum.

19

We also do not find the tax code should supersede the prioritization implied by the public welfare
regulations, since the distinction made in the tax code is similarly absent in other areas of federal code. One
such area is the United States Bankruptcy Code, which treats child and spousal support equally in the
context of creditor priority. 11 U.S.C.A. § 507 (2019). Federal law indicates that "unsecured claims for
domestic support obligations" have the highest priority^ in the settlement of bankruptcy claims, whether
they "are owed to or
[243 Md.App. 689]
recoverable by a spouse, former spouse, or child of the debtor, or such child's parent, legal guardian, or
responsible relative... on the condition that funds received... shall be applied and distributed in accordance
with applicable nonbankruptcy law." Id. at § 507(a)(1)(A) (emphasis supplied).
6. Maryland law suggests equal prioritization of child and spousal support
Consistent with the federal Child Support Enforcement Program, Maryland law defines "support" as both
child and spousal support. MUIFSA, under Family Law Article, Title 10, as well as
[221 A.3d 1128]
Title 7, Subtitle 7 of the Code of Maryland Regulations, consistently include both child and spousal support
in their definitions of "support." FL § io-i2o(d)(i)-(4) ; COMAR 07.07.01.02(B)(6) ; COMAR
07.07.0i.02(B)(30); COMAR 07.07.19.02(B)(4).
Maryland courts have yet to hear a case challenging whether spousal support is on par with child support
as a higher priority than any arrearages. However, OCSE directs us to a series of cases recognizing areas of
Maryland law where spousal and child support are considered together because of their similar nature.
These cases focus primarily on Title III, Section 38 of the Maryland Constitution, which exempts both
obligors of past due alimony and obligors of past due child support from Maryland's prohibition on
imprisonment for reason of debt. MD. CONST, art. Ill, § 38 (2001)).
For instance, in Goldberg v. Miller, the Court of Appeals held the circuit court did not have the authority
to classify guardian ad litem fees as child support, because there was a lack of statutory support for making
such a classification, and "the General Assembly is the guiding authority for matters of child support in
Maryland." 371 Md. 591, 612, 810 A.2d 947 (2002). In its analysis, the court acknowledged that child
support was "the highest and most protected status an obligation can hold under the Maryland law."
[243 Md.App. 690]
Id. at 611, 810 A.2d 947. The State cites specifically to a corresponding footnote where the court stated,
"Under Maryland law, alimony receives the same protections as child support," explaining Section 38's
permitting imprisonment of both child support and alimony obligors. Id. at 611 n.9, 810 A.2d 947 (citing
MD. CONST, art. Ill, § 38 (2001)).
Relating specifically to the Maryland Family Law Article, OCSE cites Kelly v. MCOOCSE , 227 Md. App.
106,132 A.3d 404 (2016). There, this Court held an obligor's bank accounts could be garnished for past due
child support pursuant to FL § io-io8.3(b)(i).i2 Id. at 113-14,132 A.3d 404. The obligor challenged the
line of cases used to support that garnishment was permissible due to child support's nature as a duty ,

20

rather than a debt (for which garnishment of certain assets is exempted), on the grounds that the cited cases
dealt with unpaid alimony. Id. at 113, n.4,132 A.3d 404. We explained:
The distinction [between alimony and child support] is not significant. All three cases,
although specifically pertaining to alimony, framed their analyses in terms of "intra-familial
support," see Pope v. Pope, 283 Md. 531, 536 [390 A.2d 1128] (1978) (”[T]he underlying
obligation is for intra-familial support...."); United States v. Williams, 279 Md. 673,678 [370
A.2d 1134] (1977) (same); Blum v. Blum, 295 Md. 135,142 [453 A.2d 824] (1983) (describing
the obligation to provide contractual alimony as a duty to provide intra-familial support). We
conclude their holdings are equally applicable to claims for child support.
Id.
Standing alone, these cases support, but admittedly do not prove, the Maryland legislature's intent for
current
[243 Md.App. 691]
child
[221 A.3d 1129]
and spousal support to be prioritized above all arrearages in the allocation of payments. However, taken
together with the relevant parts of the Family Law Article and Code of Maryland Regulations described
above, they demonstrate, at a minimum, that OCSE's interpretation of Maryland law to assign equal
importance to child and spousal support obligations is a reasonable interpretation, and not in apparent
contravention of the law.
Given that (1) relevant federal law mandates prioritization of current "support" obligations over arrearages,
(2) contains no requirement that all types of child support payments be prioritized above all types of spousal
support payments, (3) but indicates spousal support is to be viewed as equally important to child support,
and (4) Maryland law makes no distinction between child and spousal support in defining "support"
obligations, we find that OCSE's allocation of payments first to current child support, then to current
spousal support, and finally to child and spousal support arrearages, is not unlawful.
C. The Child's Best Interest Standard Does Not Mandate Restructuring OCSE's Allocation
Method to Prioritize Child Support Arrearages Before Current Alimony Support
Obligations
The child's best interest standard does not make unlawful, or even unreasonable, OCSE's current allocation
method. Mr. Nusbaum first points to Ross v. Hoffman, 280 Md. 172,372 A.2d 582 (1977) citing the case's
holding that the best interest of the child is supreme, to encourage us to hold that, if the statute, rules, and
policies are ambiguous, then we should fall back on Ross ' guidance to do what is best for the child first.
Ross is a custody case in which the Court of Appeals upheld the trial court's finding that the "best of interest"
of a child was served by keeping the child in the care of a third-party guardian instead of the parent
themselves. Id. at 193, 372 A.2d 582. Karen Ross, the appellant in that case, hired a babysitter when she
had a baby at 21. Id. at 181,372 A.2d 582. Over time, the babysitter became so much of a primary caregiver
that the

21

[243 Md.App. 692]
child developed an emotional bond with the babysitter and not with the biological mother. Id. at 181-82,
372 A.2d 582. The court held it would be in the child's best interest to remain in the care of the babysitter.
Id. at 192-93,372 A.2d 582.
Mr. Nusbaum also refers to Goldberger v. Goldberger for the assertion that we have found, in at least one
instance, that even though a father chooses not to support his children for religious reasons, the children's
best interests may require him to provide support. In Goldberger, an orthodox Jewish family had a father
who studied Jewish law all day but did not earn income of his own. 96 Md. App. 313,322-23,624 A.2d 1328
(1993). We found that he could earn income but chose not to, id. at 323,624 A.2d 1328, and so we remanded
to the circuit court to determine how much support he should pay to the mother. Id. at 328-29, 624 A.2d
1328.
While we agree with Mr. Nusbaum that relevant Maryland laws and policies emphasize a child's best
interests, that standard does not dictate that support payments be allocated to child support arrears before
current spousal support obligations. In Ross and Goldberger , the courts set out to determine what was
most beneficial to the children, intentionally setting aside the parents' personal interests having no bearing
on the children's well-being. But spousal support does not fit into that category. In the same vein that
Maryland and federal law promote an overarching goal of intra-familial support, we recognize that support
of the custodial spouse
[221 A.3d 1130]
is often necessary for the children's well-being. The two are not mutually exclusive. Child support will not
guarantee the best outcome for a child if his or her custodial parent does not have the means to take care of
him- or herself.
It is worth restating that should Mr. Nusbaum's payments be allocated as he requests, Ms. Nusbaum will
lose a critical means of enforcement for spousal support owed to her once Mr. Nusbaum satisfies his child
support obligations. According to 45 C.F.R. § 302.31(a)(2), a state child support agency can
[S]ecur[e] support for a spouse or former spouse who is living with the child or children, but
only if a support
[243 Md.App. 693]
obligation has been established for that spouse and the child support obligation is being
enforced under the title IV-D State plan.
45 C.F.R. § 302.31(a)(2). As OCSE points out, this means that once child support is no longer owed, its
agency cannot be used to enforce a remaining spousal support obligation. We see less how Mr. Nusbaum's
requested reallocation will benefit the Nusbaums' grown children, and more how it could harm Ms.
Nusbaum.
We conclude that the payment of spousal support is as important an interest to the welfare of a couple's
children as is the payment of child support. Maryland and federal support statutes oblige us to consider
both equally. Thus, the child's best interest standard does not overcome the support OCSE's allocation

22

structure finds in relevant state and federal law. Because this allocation structure is lawful, the judiciary is
precluded by separation of powers from interfering with its operation. Accordingly, we sustain the judgment
of the circuit court.
JUDGMENT OF THE CIRCUIT COURT FOR CARROLL COUNTY AFFIRMED. APPELLANT
TO PAY COSTS.

Notes:
1 This left the Nusbaums with one minor child subject to a child support order.
2 In Carroll County, an attorney in the Office of the State’s Attorney acts as counsel for the OCSE.
3 The fourth major principle of UIFSA, although of little import to this case, is the enactment of relaxed
evidentiary rules. Charles J. Muskin, Uniform Interstate Family Support Act , MARYLAND BAR
JOURNAL, 35 Md. B.J. 54 (Januaiy/February 2002).
1 These statutes have been codified into Title 7, Subtitle 7 of the Code of Maryland Regulations. See COMAR
07.07.01 et seq.
s In 2017, the General Assembly renamed the Department of Human Resources, the Department of Human
Services. Otherwise, there has been no substantive change to this section since 2005. 2017 Maryland Laws
Ch. 205.
6 In 2007, the General Assembly changed the references to other statutes in this section, however
substantively the section did not change. 2007 Maryland Law Ch. 8.
z In 2015, the General Assembly added "of a child" to ... "or to determine parentage of a child " 2015
Maryland Laws Ch. 308. The legislature has also made some stylistic changes to this section. Otherwise, no
substantive changes have been made.
§ Unsurprisingly, other state support programs enacted pursuant to the Office of Child Support
Enforcement requirements similarly recognize this prioritization of current obligations over arrearages.
See, e.g., Matter ofMarriage of Gayer, 326 Or. 436,445 n.9,952 P.2d 1030 (1998) (citing 45 CFR § 302.51
) ("The Oregon Administrative Rules track the federal requirement that child support payments be applied
first to current monthly child support obligations and then, as to any excess, to arrearages."); Hombeck v.
Caplinger, 227 W.Va. 611, 617, 712 S.E.2d 779 (2011) (citing 45 C.F.R. § 302.51) (Explaining that under
West Virginia's Bureau for Child Support Enforcement's allocation model, "pursuant to federal
requirement, current support is paid first; money in excess of current support is next applied to principal
in arrears."); 921 KY. ADMIN. REGS. 1:420 § 3 (Oct. 2019) ("If the obligor's current support obligations
subject to income withholding are satisfied for the current month, the cabinet shall allocate a remaining
income withholding amount among the obligor's ordered arrears obligations.").
2 Prioritization of current child and spousal support obligations before arrearages finds further support in
other state support agencies' allocations structures. For example, The Oklahoma Department of Human
Services Child Support Services (CSS) allocates and distributes support collections in its Title IV-D cases
pursuant to 42 U.S.C. § 657 and 45 C.F.R. §§§ 302.32,302.51 and 302.52, OKLA. ADMIN. CODE § 340:25-

23

5~35i(a). Payments are first "prorated to the current child support, cash medical support, and spousal
support," and second, "prorated to the monthly plan on past support..." Id. at §(c)(2).
ia As of February 14, 2019, 26 USCA § 71 was repealed and replaced by proposed legislation. H.R. 1244,
116th Cong. (2019). However, its repeal does not affect our decision, as Section 71 was the law during the
parties' marriage, divorce, and domestic support proceedings. As such, we shall be guided by its application
to the facts of this case.
11 Prior to the 2010 amendments, domestic support was seventh in priority to other unsecured claims. 11
U.S.C A. § 507 (2005, amended 2010). However, this does not defeat our position that this area of federal
code does not indicate that either child or spousal support obligations should be prioritized above the other.
12 The provision reads "(b)(i) If an obligor identified in a report submitted under § 10-108.2 of this subtitle
or in a report made to the Federal Parent Locator Service under 42 U.S.C. § 666(a)(i7) is $500 or more in
arrears of a child support obligation and has not paid child support for more than 60 days, the
Administration may institute an action to attach and seize the amount of the arrearage in one or more of
the accounts of the obligor with a financial institution to satisfy the amount of arrearage owed by the
obligor." FL § io-lo8.3(b)(l)

Maryland Bureau of Support Enforcement
Policy Manual
Chapter

C. COLLECTIONS AND DISTRIBUTIONS

Topic

C.700. DISTRIBUTION POLICIES AND PROCEDURES

Section

C.704. Distribution Matrix

C.704.1 Regular Payments
Regular payments are prorated by CSES at the CASE LEVEL using the account/accounts
support obligation amounts (SOA) to prorate the payment to the case/cases. An exception
are payments for multiple cases in which one or more of the cases has no account SOA.
In this situation, payment is prorated to the cases with SOA on accounts first. Then the
remaining payment is prorated based on the balance of each case. Payments from the
state Tax Refund Intercept Program (TRIP) and the federal Administrative Offset Program
are applied to current and certifiable accounts. If any payment remains, it is refunded to
the non-custodial parent.
Note: See the CSES User Manual for a description of system levels and account
codes.
Regular payments are distributed by CSES according to the following priorities:
•
Priority 1 Current Support Accounts (SOA): CC, PC, TC, FC, NC, WC, BC,
MC, DC, XC, YC, SC. All the accounts have equal precedent and must ONLY apply
monthly SOA of the account. The proration must be based on the monthly SOA of the
accounts.

24

Chapter

C.COLLECTIONS AND DISTRIBUTIONS

Topic

C.700. DISTRIBUTION POLICIES AND PROCEDURES

Section

C.706. Distribution Exceptions

c. 706. Distribution Exceptions

The following policy guidelines shall be used when processing distribution
exceptions to the federal and state distribution payment hierarchy, which
requires child support payments be applied to current support before
satisfying other obligations;
The CSES User Manual lists the account codes:
Code
CC
PC
TC
FC
NC
WC
BC
MC
DC
XC
YC
SC

Description
NAFDCCURRENT SUPPORT
AFDCCURENTSUPPORT
OUT OF STATE AFDC CURRECT
SUPPORT
AFDC FC CURRENT SUPPORT
NAFDC FC CURRENT SUPPORT
OUT OF STATE ON-AFDC CURRENT
SUPP
SSI/CURRENT SUPPORT
MEDICAL SUPPORT CURRENT
CSBCURRENT SUPPORT
NON IV-D CURRENT SUPPORT
COLLECT AND DISBURSEMENTCURRENT
SPOUSAL SUPPORT ONLY(N-IV-D)

25

